       WAIVERS OF REQUIREMENT FOR CONTRACTORS
           TO PROVIDE COST OR PRICING DATA

Report No. D-2001-061                    February 28, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DAC                   Designated Acquisition Commander
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DCADS                 Defense Contract Action Data System
DFARS                 Defense Federal Acquisition Regulation Supplement
DLA                   Defense Logistics Agency
FAR                   Federal Acquisition Regulation
HCA                   Head of the Contracting Activity
IPT                   Integrated Product Team
LM/GES                Lockheed Martin Government Electronic Systems
NAVAIR                Naval Air Systems Command
NAVSEA                Naval Sea Systems Command
ODA                   Other Defense Agencies
PEO                   Program Executive Officer
PPSS                  Post-Production Systems Support
SAF/AQCS              Deputy Assistant Secretary of the Air Force (Contracting),
                         Program Division
TINA                  Truth in Negotiations Act
                       Office of the Inspector General, DoD
Report No. D-2001-061                                                 February 28, 2001
   (Project No. D2000CH-0106)


            Waivers of Requirement for Contractors to Provide
                          Cost or Pricing Data

                                Executive Summary

Introduction. This audit was initiated in response to a tasking in the Senate Committee
on Armed Services Report on the National Defense Authorization Act for FY 2000.
The committee noted that during FYs 1997 and 1998, DoD granted roughly $2.5 billion
of waivers to the Truth in Negotiations Act (TINA) requirement that contractors
provide cost or pricing data. The TINA authorizes the waivers only in extraordinary
circumstances. Additionally, the statement of managers accompanying the Strom
Thurmond National Defense Authorization Act for FY 1999 states that Congress
intended that this waiver authority be used only in limited circumstances. The
committee directed that the Inspector General, DoD, review the Department's use of
the waiver authority.

Objectives. The overall audit objective was to determine whether waivers of the
requirement for contractors to provide cost or pricing data granted in FYs 1997 and
1998 were properly justified and used in appropriate circumstances. Additionally, we
determined whether the Department ensured that prices were fair and reasonable when
the requirement was waived. We reviewed 4,590 contract actions, valued at
approximately $2 billion, coded as receiving a waiver to cost or pricing data. We also
evaluated the management control program as it related to the overall objective.

Results. Contracting officials properly justified, and used in appropriate
circumstances, waivers of the TINA requirement to obtain cost or pricing data in an
estimated 189 of the reviewed contract actions, valued at $1.04 billion, where waivers
were used. Contracting officers also ensured fair and reasonable prices for those 189
contract actions. The procedures that DoD contracting organizations used to process
the waivers and to determine fair and reasonable prices were effective and not
burdensome (finding A).

The information on cost or pricing data in the Defense Contract Action Data System
(DCADS) was very inaccurate and misleading. We estimated that 4,264 actions
(92.9 percent), valued at $789 million, of 4,590 contract actions were miscoded. The
significant errors grossly inflated the reported number of contract actions in which the
requirement for contractors to provide cost or pricing data had been waived. During
the audit, the Director, Defense Procurement, issued guidance requiring the Military
Departments and Defense agencies to initiate actions to improve the accuracy of cost or
pricing data information (finding B).

Contracting officers at five contracting organizations did not obtain or waive cost or
pricing data for a few contract actions in our sample. We estimate that this problem
applied to 11 actions, valued at $15 million, of the 4,590 contract actions. Not
obtaining cost or pricing data or a waiver resulted in insufficient support for the
contracting officers' determinations that fair and reasonable prices were achieved for
the contact actions (finding C).

Summary of Recommendations. We recommend that the Director, Defense
Procurement, ensure that the Military Departments and Defense agencies provide the
results of this audit to their contracting organizations and periodically review coding
accuracy, with a report on coding for FY 2001 actions. We also recommend that the
heads of the contracting organizations that did not obtain or waive cost or pricing data
require their contracting officers to comply with the Federal Acquisition Regulation and
Defense Federal Acquisition Regulation Supplement guidance for obtaining cost or
pricing data and the procedures for waiving the requirements when justified.

Management Comments. The Director, Defense Procurement, concurred, stating that
she will provide the Military Departments and Defense agencies a copy of this report,
emphasizing the need for their institution of management controls designed to ensure
correct coding in DCADS, particularly as it regards cost or pricing data. The Director
will also request the Military Departments and Defense agencies to report by
February 1, 2002, the actions taken and results achieved regarding the accuracy of
coding for FY 2001 actions. The Director, Defense Threat Reduction Agency; the Air
Force; and the United States Property and Fiscal Officer, Oregon, concurred. The
Director, Defense Threat Reduction Agency and the United States Property and Fiscal
Officer, Oregon, issued guidance and the Air Force instituted training to increase
contracting personnel awareness of the requirements pertaining to cost or pricing data.
See the Finding section of the report for a discussion of management comments and the
Management Comments section for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                        i

Introduction
   Background                                                            1
   Objectives                                                            3

Findings
     A. Use of Waivers of Cost or Pricing Data                           4
     B. Accuracy of Information on Cost or Pricing Data in DCADS         8
     C. Obtaining Cost or Pricing Data or a Waiver of the Requirement   11

Appendixes
     A. Audit Process
         Scope                                                          17
         Methodology                                                    17
         Management Control Program Review                              21
         Prior Coverage                                                 23
     B. Price Determinations and DoD Waivers for Cost or Pricing Data   24
     C. Waivers Granted by HCAs                                         28
     D. Director, Defense Procurement, Memorandum of August 7, 2000     35
     E. Report Distribution                                             38

Management Comments
     Director, Defense Procurement                                      41
     Department of the Air Force                                        43
     Defense Threat Reduction Agency                                    48
     United States Property and Fiscal Officer, Oregon                  49
Background
  We performed the audit in response to a tasking in the Senate Committee on Armed
  Services Report on the National Defense Authorization Act for FY 2000. The
  committee expressed concerns regarding the number reported by DoD of waivers of
  the Truth in Negotiations Act (TINA) requirement that contractors provide cost or
  pricing data. The committee noted that DoD reported roughly $2.5 billion waivers
  during FYs 1997 and 1998. The TINA authorizes the waivers only in extraordinary
  circumstances, and managers' statements accompanying the Strom Thurmond
  National Defense Authorization Act for FY 1999 emphasized that Congress
  intended this waiver authority use only in limited circumstances. The committee
  directed that the Inspector General, DoD, review the waivers to ensure that the
  waiver authority was properly justified and used in appropriate circumstances.
  DoD was also to ensure that prices were fair and reasonable in cases where the
  requirement for cost or pricing data was waived.

  TINA Requirement. The TINA has been used as an important tool during the
  negotiation phase of Government contracts for more than 38 years. TINA requires
  a contractor to provide the Government with "cost or pricing data," during
  negotiations for certain contracts and contract modifications. This information is
  broadly categorized to include, ". . . all facts that prudent buyers and sellers would
  reasonably expect to affect price negotiations significantly." Further, the contractor
  must certify that the data are "current, accurate, and complete," as of the date the
  parties agree on a price. The Federal Acquisition Regulation (FAR) and the
  Defense Federal Acquisition Regulation Supplement (DFARS) contain guidance for
  implementing TINA.

Guidance on Cost or Pricing Data
  Cost or Pricing Data Defined. FAR 15.401, "Definitions," defines cost or pricing
  data as data that requires certification in accordance with FAR 15.406-2,
  "Certificate of Current Cost or Pricing Data." Cost or pricing data submissions are
  factual, verifiable, and not judgmental. The data represents accumulated
  information that could reasonably contribute to sound estimates of future costs and
  also validate costs already incurred. The data includes such factors as:

     • vendor quotations,

     • nonrecurring costs,

     • information on changes in production methods and production or purchasing
       volume,

     • data supporting projections of business prospects and objectives and related
       operations costs,

     • unit cost trends such as those associated with labor efficiency,


                                          1
   • make or buy decisions,

   • estimated resources to attain business goals, and

   • information on management decisions that could have a significant bearing
     on costs.

Both prime contractors and subcontractors can be required to furnish cost or pricing
data for contracting officer use in determining reasonableness of contract
price.

Determining Cost or Pricing Data Requirements. FAR 15.403, "Obtaining Cost
or Pricing Data," requires that contracting officers obtain cost or pricing data for
contracts and contract modifications valued at $550,000 or more when the
contracting officer concludes that none of the exceptions in the FAR apply. The
threshold changed to from $500,000 to $550,000 in FY 2001. Additionally, if
sufficient information is available to determine price reasonableness, then a waiver
of the requirement to obtain cost or pricing data should be considered. The Head of
the Contracting Activity (HCA) may authorize the contracting officer to obtain cost
or pricing data for contract actions above the $100,000 simplified acquisition
threshold but below the $550,000 cost or pricing data threshold unless an exception
at FAR 15.403-1(b) applies. The HCA must justify the requirement for cost or
pricing data. The documentation must conclude that cost or pricing data are
necessary to determine whether the price is fair and reasonable.

Prohibitions and Exceptions to Cost or Pricing Data Requirements.
FAR 15.403-1 prohibits contracting officers from obtaining cost or pricing data for
acquisitions that are at or below the simplified acquisition threshold. The guidance
also states that contracting officers shall not require cost or pricing data submissions
to support any action when one of the following exceptions are present.

   • The acquisition is based on adequate price competition or prices set by law
     or regulation.

   • A commercial item is being acquired.

   • A waiver has been granted.

   • A modification of a commercial item contract or subcontract.

DFARS 215.403, "Obtaining Cost or Pricing Data," states that DoD waived the
requirement to obtain cost or pricing data from the Canadian Commercial
Corporation and its subcontractors, and from nonprofit organizations (including
educational organizations) with cost-reimbursement-no-fee contracts.

Other Circumstances Where Cost or Pricing Data Are Not Required.
FAR 15.403-2 states that cost or pricing data are not required when an option is
exercised at the price established at contract award or initial negotiation, and for
proposals used solely for overrun funding or interim billing price adjustments.


                                         2
  Contracting officers are required by FAR 15.402, "Pricing Policy," to use every
  means available to ascertain whether a fair and reasonable price can be determined
  before requesting cost or pricing data.

Objectives
  The overall audit objective was to determine whether waivers of the requirement for
  contractors to provide cost or pricing data granted in FYs 1997 and 1998 were
  properly justified and used in appropriate circumstances. Additionally, we
  determined whether the Department ensured that prices were fair and reasonable
  when the requirement was waived. We also evaluated the adequacy of management
  controls related to the audit objective. See Appendix A for a discussion of the audit
  process and our review of the management control program.




                                          3
             A. Use of Waivers of Cost or Pricing
                Data
             Contracting officers properly justified, and used in appropriate
             circumstances, waivers of the TINA requirement to obtain cost or pricing
             data for certain negotiated contract actions valued at $500,000 or more.
             Contracting officers also ensured fair and reasonable prices for the
             contract actions where cost or pricing data were waived. The procedures
             that DoD contracting organizations used to process the waivers and to
             determine fair and reasonable prices were effective and not burdensome.

Granting Cost or Pricing Data Waivers
  Review of Contract Actions Coded as Waivers in Our Audit Sample. Of
  4,590 actions, valued at approximately $2 billion, coded cost or pricing data waived,
  we estimated that the contracting officers properly waived cost or pricing data for
  189 actions valued at about $1 billion. See Appendix A, Table A-4, for the details
  of the statistical projections. We evaluated contract file documentation and the
  procedures used to process 44 waivers, valued at $702.3 million, that were in our
  statistical sample.

  Justifications for Waivers in Sample. The contracting officers properly justified
  and used in appropriate circumstances the 44 waivers evaluated. The waivers were
  granted to 17 nonprofit and 27 for profit contractors. Table 1 summarizes the
  waiver justifications. See Appendixes B and C for a detailed discussion of the
  waivers.

                    Table 1. Summary of Cost or Pricing Data
                              Waiver Justifications

               Justifications            Actions     Authority     Value ($ M)

    Canadian Commercial Corporation          1     DoD blanket         $0.7
    (nonprofit)                                      waiver

    Contractor refused to provide data       4         HCA             $3.8

    Cost or pricing data furnished on        22        HCA           $686.7
    previous procurement
    Mentor-protége development               1         HCA             $1.2
    assistance development program
    Nonprofit educational institutions       16    DoD blanket         $9.9
                                                     waiver




                                         4
Ensuring Fair and Reasonable Prices
  The contracting officers ensured fair and reasonable prices in the instances where
  cost or pricing data had been waived. The contracting officers concluded that they
  could not determine price reasonableness on four actions, because of insufficient
  competition and contractor refusals to provide cost or pricing data. Of the four
  contract actions, two were awarded to Mobil Oil Corporation for fuel storage and
  throughput at contractor-owned, contractor-operated facilities at Djibouti, East
  Africa. Mobil Oil refused to provide cost or pricing data, stating that the price was
  based on prevailing market conditions in the area, not on cost data. The other two
  contract actions were awarded to Delaware Storage and Pipe Line Company for
  maintaining, storing, and transferring war reserve materiel. The contractor refused
  to provide cost or pricing data, stating the data was proprietary. The contracting
  officers determined fair and reasonable prices on the other 40 actions based on:

     • standard tuition rates charged by universities,

     • previously negotiated prices that were based on cost or pricing data combined
       with updated cost data,

     • labor rates established by state law and verified by DCAA, and

     • cost and price analysis, including assistance from DCAA and the Defense
       Contract Management Agency (DCMA) when appropriate.

  See Appendixes B and C for price reasonableness determinations for actions with
  cost or pricing data waived.

Processing Waivers of Cost or Pricing Data
  Guidance for Waiver Approvals. The FAR authorizes HCAs to grant waivers of
  the TINA requirement to obtain cost or pricing data only in extraordinary
  circumstances. The DoD waived the requirement for cost or pricing data for the
  Canadian Commercial Corporation and its subcontractors, and from nonprofit
  organizations (including educational institutions) on cost-reimbursement-no-fee
  contracts. The Air Force supplements to DFARS designates the Assistant Secretary
  of the Air Force (Acquisition) as the HCA for Program Executive Officer (PEO) and
  Designated Acquisition Commander (DAC) programs. The guidance stipulates
  processing waiver requests through PEO/DAC channels to the Deputy Assistant
  Secretary (Contracting), Program Division (SAF/AQCS). When the HCA is the
  Deputy Assistant Secretary of the Air Force (Contracting), waiver requests are also
  forwarded to SAF/AQCS. The Air Force also maintains a web site addressing
  TINA waivers and guidance for preparing waiver packages for HCA signature.

  The Naval Air Systems Command (NAVAIR) and the Naval Sea Systems Command
  (NAVSEA) maintain internal guidance on cost or pricing data waivers. The
  NAVAIR guidance outlines criteria for waivers and includes a sample waiver
  request. The guidance states that waivers are justified only in situations where

                                          5
adequate, reliable cost information exists. Cost projections are created from
verifiable costs on completed contractual efforts, instead of negotiated numbers. The
NAVSEA guidance outlines the four levels of internal review required before the
Commander, NAVSEA (the HCA) approves a waiver.

Procedures for Processing Waiver Requests. Although each contracting
organization had different internal procedures for processing waivers, the overall
process is the same. The waiver request was initiated by the contracting officer,
reviewed by various levels of management (program office, cost analyst, legal, and
chief of the contracting office), and forwarded to the HCA for approval. The waiver
request normally included a clear description of the methods for determining price
reasonableness and a summary statement of the requested approval action, or if
applicable, a complete description of the data the contractor refused to submit and
the basis for refusal. Figure 1 depicts the typical process for waiver requests.




  Contracting Officer            Program Office                Cost/Price
   Waiver Request                   Review                   Analysis Review




                                                               Legal Review




       HCA                        HCA Staff               Chief of Contracting
Approve/Disapprove                 Review                       Review

       Figure 1. Typical Procedures for Processing Waiver Requests




                                       6
Conclusion. DoD used effective procedures to process 44 waivers of the TINA
requirement to obtain cost or pricing data. The waivers were justified and granted
only in exceptional circumstances, and fair and reasonable prices were obtained.

Nothing came to our attention to indicate that a burdensome, unreasonable, or
excessive time-consuming process existed. Therefore, we are not making any
recommendations concerning DoD contracting organizations procedures for waiver
processing.




                                       7
            B. Accuracy of Information on Cost or
               Pricing Data in DCADS
            The information on cost or pricing data in DCADS was very inaccurate
            and misleading. We estimated that 4,264 contract actions, valued at
            $789 million, of 4,590 contract actions valued at approximately
            $2 billion, were miscoded as having cost or pricing data waived in
            DCADS. The inaccurate information in DCADS occurred primarily
            because the contract specialists coding the Individual Contracting Action
            Report (DD Form 350) were not aware or did not understand the FAR
            and DFARS guidance. Also, the contracting officers that signed the
            DD Forms 350 did not correct the errors. The significant errors resulted
            in misleading reports that grossly inflated the number of contract actions
            with cost or pricing data waived.

DCADS
  The Office of Federal Procurement Policy Act (41 U.S.C. 405) requires that the
  administrator for Federal Procurement Policy establish a computer-based Federal
  Procurement Data System to collect, develop, and disseminate procurement data to
  Congress, the executive branch, and the private sector. Executive departments and
  agencies collect and report procurement data to the Federal Procurement Data
  System. The data measures and assesses the impact of Federal procurements on the
  nation's economy, the extent which small business firms and small disadvantaged
  business firms are sharing in Federal procurements, and the impact of full and open
  competition in the acquisition process and other procurement matters. DCADS is
  the DoD reporting system that supports the Federal Procurement Data System.
  Contracting officers are required by DFARS to use the DD Form 350 to report
  selected information on contract actions, valued at $25,000 or more, including
  information on cost or pricing data. Block C11 of the DD Form 350 shows whether
  cost or pricing data was obtained.

Guidance on Completing Block C11 of the DD Form 350
  Contracting officers must enter one of the following codes in block C11 of the
  DD Form 350 when block B1B is coded "A" (DoD contract), block B5B is
  coded "N" (not a Government agency contract), and block B13A is not
  coded "6" (Federal Supply Schedule order or call):

     • Code "Y" - Yes - Obtained. Enter code "Y" when cost or pricing data
       were obtained (see FAR 15.403-4) and certified in accordance with
       FAR 15.40602.

     • Code "N" - No - Not Obtained. Enter code "N" when neither code "Y" nor
       code "W" applies.



                                         8
  • Code "W" - Not Obtained - Waived. Enter code "W" when cost or pricing data
    were not obtained because the requirement was waived (see FAR 15.403-1[C][4]).

Reporting Information on Cost or Pricing Data to DCADS
  Inaccurate and Misleading Information Reported. We estimated that the
  contracting officers reported inaccurate and misleading information for 4,264 of
  4,590 FYs 1997 and 1998 contract actions coded cost or pricing data waived in
  DCADS. The contracting officers signed DD Forms 350 for the 4,264 actions with
  the cost or pricing data block (block C11) miscoded "W - Not Obtained - Waived,"
  when no waiver of cost or pricing data was obtained. We evaluated 316 miscoded
  contract actions, valued at $736.8 million, to identify the reasons for the miscoding.

  Miscoded DD Forms 350. Cost or pricing data were obtained for 33 of
  316 miscoded contract actions. Block C11 of the DD Form 350 should have been
  coded "Y - Yes - Obtained." Block C11 should have been coded "N - No - Not
  Obtained" for 276 of the miscoded actions, because they were either below the
  simplified acquisition threshold, or exceptions1 to, not waivers of, the requirement
  to submit cost or pricing data. The other seven miscoded actions did not meet the
  exception criteria and the contracting officers did not obtain the required cost or
  pricing data or a waiver of the requirement (see finding C). The miscoding resulted
  primarily from contracting officials erroneously coding block C11 "W - Not
  obtained - Waived" instead of "N - No - Not Obtained," when an action was below
  the simplified acquisition threshold or met one of the exemptions in FAR 15.403.
  The contract specialists that coded the DD Forms 350 were not aware or did not
  understand the FAR and DFARS guidance concerning coding criteria for
  block C11. Also, the contracting officers that signed the DD Forms 350 did not
  notice or correct the errors.

  The miscoding grossly inflated the reported number of contract actions with cost or
  pricing data waived. To reemphasize the need for compliance with cost or pricing
  data requirements and improve the accuracy of reported cost or pricing information,
  all DoD contracting organizations should be made aware of the results of this audit.

Action Taken to Improve the Accuracy of Cost or Pricing
Data Information Reported to DCADS
  During the audit, most of the 104 contracting organizations that reported inaccurate
  information on cost or pricing data to DCADS issued internal guidance advising

  1
   For the 276 exceptions, we accepted the contracting officer's determination that an exception
  applied. We did not evaluate the validity of the determinations. The Inspector General, DoD, Audit
  Project No. D2000CF-0059, "Audit of Adequacy of Contracting Officer Determination of Price
  Reasonableness When Cost or Pricing Data Are Not Required," was examining the validity of the
  determinations that an exception applied.




                                                9
  contracting officials of inaccurate reporting and the need to correctly code block
  C11 of the DD Form 350. McClellan Air Force Base will close soon and,
  therefore, did not issue guidance. Additionally, in response to our suggestions, the
  Director, Defense Procurement, issued a memorandum, July 24, 2000, requesting
  that Military Departments and Defense agencies initiate actions to improve the
  accuracy of cost or pricing data information. The Director referenced the Federal
  Register DFARS rule (DFARS Case 2000-D0001, effective October 1, 2000). The
  new guidance includes specific instructions for completing block C11 of the
  DD Form 350. The instructions clarify the use of Code "W" for waiver of cost or
  pricing data when the data was not obtained because the HCA waived the
  requirement (see Appendix D). The internal guidance issued by the contracting
  organizations and the actions taken by the Director, Defense Procurement, should
  minimize the coding errors and misleading information reported to DCADS.
  However, follow-up action is necessary to determine whether these measures are
  effective.

Recommendations and Management Comments
  B. We recommend that the Director, Defense Procurement require the
  Military Departments and Defense agencies to:

      1. Provide the results of this audit to their contracting organizations,
  reemphasizing the need for compliance with FAR and DFARS guidance on
  cost or pricing data.

      2. Periodically monitor the accuracy of coding for contract actions
  identified in DCADS with cost or pricing data waived, starting with a review
  of coding for FY 2001 actions and report those results to the Director, Defense
  Procurement, by February 1, 2002.

  Director, Defense Procurement Comments. The Director, Defense Procurement,
  concurred. The Director agreed to provide copies of this report within 60 days of
  publication to the Military Departments and Defense agencies, emphasizing the need
  for the Military Departments and Defense agencies to institute management controls
  designed to ensure correct coding in DCADS, particularly as it regards
  cost or pricing data. Additionally, the Director will request that the Military
  Departments and Defense agencies report by February 1, 2002, the actions taken
  and results achieved regarding the accuracy of coding FY 2001 actions in DCADS.
  For the full text of comments from the Director, Defense Procurement, see the
  Management Comments section of the report.

  Air Force Comments. The Air Force also agreed with Recommendations B.1. and
  B.2., stating that it has provided web-based tools and training to field organizations
  for determining appropriate use of cost or pricing data. Additionally, it has
  provided specific guidance to field organizations addressing proper coding of cost or
  pricing data information in the DCADS. For the full text of Air Force comments,
  see the Management Comments section of the report.



                                         10
             C. Obtaining Cost or Pricing Data or a
                Waiver of the Requirement
             Contracting officers at five contracting organizations did not obtain or
             waive required cost or pricing data for sample contract actions. We
             estimated that this condition applied to 11 actions, valued at
             $15 million, in the universe of 4,590 contract actions. The contracting
             officers reported there was a waiver to the requirement to obtain cost or
             pricing data when there was no waiver or valid exception to obtaining
             cost or pricing data. Cost or pricing data were not obtained or waived
             because the contracting officers ignored the requirement to obtain the
             information. As a result, insufficient support exists for the contracting
             officers' determinations that fair and reasonable prices were achieved
             for the seven contract actions in our sample.

Requirements for Obtaining Cost or Pricing Data
  Contracting officers must obtain cost or pricing data from contractors and
  subcontractors when negotiating contracts or contract modifications valued at
  $550,000 or more, unless one of the FAR 15.403-1 exceptions is applicable. The
  exceptions are:

     •   when the contracting officer determines that prices agreed upon are based
         on adequate price competition, or prices set by law or regulation;

     •   when a commercial item is being acquired;

     •   when a waiver has been granted; or

     •   when modifying a contract or subcontract for commercial items.

  Contracting Officers' Compliance Issues. Our sample review of the contracts
  reported as having a waiver for cost or pricing data identified seven sole-source
  contracts with no waiver or valid exception. The reasons cited were:

     •   HCA chose not to prepare or sign a waiver (one contract),

     •   contracting officer was not aware of the requirement to obtain the data
         (one contract),

     •   contracting officer ignored the FAR guidance in order to award contract
         before the close of the fiscal year (three contracts), and

     •   contracting officer claimed an exemption for competition when none existed
         (two contracts).




                                         11
We could not determine whether there was overpricing or adequate pricing because
adequate data or documentation did not exist. These cases are basically examples
of poor contracting. The seven contracts are described in the following
paragraphs.

   Defense Threat Reduction Agency

       Contract DSWA01-98-C-0016, November 27, 1997, for tunnel closure
       work valued at $4,819,501. Awarded to the National Nuclear Center,
       Republic of Kazakhstan, the sole source designated by DoD and the
       Republic of Kazakhstan to perform the work. The contracting officer
       concluded that the contract price was fair and reasonable and stated that the
       contract costs were developed based on previous contracts for similar work
       and labor rates and coefficients established by the Republic of Kazakhstan.
       The contract file has no waiver document and the price negotiation
       memorandum does not discuss a waiver of cost or pricing data. A Defense
       Threat Reduction Agency procurement official stated that the HCA, who
       was also the contracting officer for this contract action, waived cost or
       pricing data, but chose not to prepare the justification and sign the waiver.
       The HCA should have documented the waiver.

   United States Property and Fiscal Office, Salem, Oregon

       Contract DAHA35-97-C-0006, September 30, 1997, for construction
       services, valued at $2,086,000, for the Army National Guard Bureau. The
       contract was a Small Business 8(a) set-aside awarded at the end of the fiscal
       year. The price negotiation memorandum signed by the contracting officer
       indicated that fair and reasonable prices were determined by comparing the
       contractor's proposal to an independent Government estimate, which was
       used as the target objective for negotiations. The contracting officer stated
       that a previous contract price for similar services was used to determine a
       fair and reasonable price and that this was the method for all contracts and
       that waivers were not secured for those contracts. The contracting officer
       was not aware that FAR and DFARS guidance required cost or pricing data
       or a waiver for this contract action. We believe that without cost or pricing
       data or other significant cost data, the contracting officer had inadequate
       support for the determination that the contract price was fair and
       reasonable.

   Schriever Air Force Base, Colorado

       Contract FA2550-97-C-0008, September 25, 1997, for minor construction
       and repair of a fitness center valued at $716,175. The contract was a small
       business set-aside awarded at the end of the fiscal year. The chief of
       contracting, Schriever Air Force Base signed a determination and finding
       stating that waiving cost or pricing data was appropriate. However, a
       waiver request was not forwarded to, or approved by the HCA
       (Commander, Air Force Space Command), so that the contract could be
       awarded before the end of the fiscal year. The contracting officer


                                       12
   determined the price was fair and reasonable based on the prime contractor
   obtaining the lowest negotiated prices from the subcontractors performing
   most of the work, a 330-day performance period, and comparison of the
   proposed price with the Government objective. We believe the contracting
   officer had inadequate support for the determination that the contract price
   was fair and reasonable.

   Contract FA2550-98-C-0015, September 29, 1998, for building renovations
   valued at $892,666. The contract was a small business set-aside awarded at
   the end of the fiscal year. The contracting officer and the contract
   specialist stated that because of time constraints (approaching the end of the
   fiscal year), cost or pricing data were not obtained. The contractor's
   proposal was analyzed and compared to contract costs for similar services.
   However, the contracting officials were unable to provide documentation
   showing the similar contract costs and comparisons. The contracting
   officer determined the contract price was fair and reasonable based on a
   Means Guide2 comparison, the Government estimate, the technical
   evaluation recommendations, other information obtained during fact
   finding, and the contractor's revised proposal. Based on the information
   provided by contracting officials at Schriever Air Force Base, we were
   unable to determine whether the contracting officer had adequate support
   for the determination. The contracting officer should have obtained cost or
   pricing data, or requested the HCA to grant a waiver of the requirement.

Warner Robins Air Force Base, Georgia

   Delivery order F09603-97-G-0003/0016, August 15, 1998, for
   19 receivers/transmitters (RT-1571A) valued at $893,000. The contracting
   officer determined the price was fair and reasonable based on a price
   comparison analysis from a March 1993 contract award for two
   receivers/transmitters. The Chief, Avionics Management Contracting
   Division, Warner Robins, stated that the contracting officer failed to
   comply with FAR 15.403-4 because cost or pricing data were not obtained
   or waived. The contracting officer either ignored the FAR and DFARS
   requirements or did not request the data in order to make the contract award
   before the end of the fiscal year. The contracting officer had inadequate
   support for the determination of a fair and reasonable contract price.

   As a part of their corrective actions, contracting officials at Warner Robins
   Air Force Base also determined that delivery order
   F09603-97-G-0003/0023, valued at $542,100, was inappropriately awarded
   without cost or pricing data or a waiver. The same contracting officer
   awarded orders F09603-97-G-0003/0016 and F09603-97-G-0003/0023.
   The contracting officer is no longer employed by DoD.

   2
    The Means Guide contains a fairly comprehensive list of line-item costs for construction
   projects. It is useful for estimating material acquisition costs and costs of specific
   reclamation tasks, such as structure removal.



                                        13
Air Force Research Laboratory, Kirtland Air Force Base, New Mexico

   Contract F29601-98-C-0014, March 2, 1998, for research on adaptive
   control systems, valued at $734,653, and contract F29601-98-C-0020,
   April 6, 1998, for research and development work on optical controls for
   the Ultralite space experiment, valued at $758,195. Both contracts were
   Phase II Small Business Innovative Research contracts. The chief, Contract
   Policy Division, at Kirtland stated that the DD Forms 350 for the contracts
   were incorrectly coded "W" in block C11, indicating that cost or pricing
   data was waived. Block C11 should have been coded "N" indicating that
   cost or pricing data was not obtained because the contracting officer
   determined that adequate price competition existed. Further,
   FAR 15.403-1(c)(iii) states that adequate price competition may exist if,
   ". . . price analysis clearly demonstrates that the proposed price is
   reasonable in comparison with current or recent prices for the same or
   similar items, adjusted to reflect changes in market conditions, economic
   conditions, quantities, or terms and conditions under contracts that resulted
   from adequate price competition."

   The price negotiation memorandum signed by the contracting officer for
   contract F29601-98-C-0014 did not mention price competition. The chief,
   Contract Policy Division, stated that informal file documentation indicates
   that the contracting officer compared the proposed costs to the costs of the
   prior (Phase I) effort. However, the chief did not provide copies of the
   informal documents, nor any evidence that adequate price competition was
   obtained for the Phase I effort, or that Phase I and Phase II efforts were
   comparable. In the price negotiation memorandum, the contracting officer
   stated that the contract price was fair and reasonable based on a
   technical/quantitative evaluation of the proposal by the Project Office;
   review of all documents submitted by the contractor; discussions and
   negotiations with the contractor; DCAA October 1, 1997, information on
   rates for consultant management, subcontract management, direct labor,
   labor overhead, and general and administrative expenses; and weighted
   application guidelines.

   For contract F29601-98-C-0020, the contracting officer signed a
   memorandum on April 15, 1998 (9 days after contract award), stating that
   ". . . the contract action was submitted in response to a competitive
   solicitation and is assumed to be based on adequate price competition.
   Circumstances indicate the offer was submitted independently, with a
   reasonable expectation of competition, and at least one other offeror was
   capable of submitting a meaningful offer." The accuracy of the contracting
   officer's statement was questionable because Small Business Innovative
   Research Phase II contracts continue the R&D effort started in Phase I and
   only awardees in Phase I were eligible to participate in Phase II. The
   Chief, Contract Policy Division, stated that the contracting officer's
   determination that adequate price competition existed was valid because the
   price negotiation memorandum clearly states that the action was submitted


                                  14
        in response to a competitive solicitation. He further stated that the action
        was consistent with Air Force Materiel Command guidance concerning
        adequate price competition. The key element in the guidance was whether
        price was a substantial factor in the contract award. If price was not a
        substantial factor, then adequate price competition did not exist and cost or
        pricing data were required. The chief provided no evidence that price was
        a substantial selection criteria for this contract award. The contracting
        officer had inadequate support for the determination that the prices for
        contracts F29601-98-C-0014 and F29601-98-C-0020 were fair and
        reasonable without cost or pricing data or other significant data to
        determine price reasonableness.

Summary
 The audit identified seven contract actions, valued at $10.9 million, in our sample
 coded as having waived cost or pricing data for which the contracting officers did
 not obtain or waive cost or pricing data as required by FAR and DFARS guidance.
 We estimated that contracting officers failed to obtain either cost or pricing data or
 waivers for 11 actions, valued at $15 million, in the universe of 4,590 contract
 actions.

 The Inspector General, DoD, Audit Project No. D2000CF-0059, "Audit of
 Adequacy of Contracting Officer Determination of Price Reasonableness When
 Cost or Pricing Data Are Not Required," identified where waivers to obtaining
 cost or pricing data were claimed but the DD Form 350 was coded as "N - No -
 Not Obtained." Those waivers to obtaining cost or pricing data were not in the
 universe for this audit. As a result, the validity of the waivers with a
 DD Form 350 stating there was no waiver will be covered in the final report for
 the ongoing audit.

 Without the cost or pricing data or other significant data to determine price
 reasonableness, the contracting officers had inadequate support for their
 determinations that the contract prices were fair and reasonable. The estimated
 11 contract actions, valued at $15 million, for which the contracting officers failed
 to obtain cost or pricing data identified in this audit indicate a potentially costly
 problem with contacting officers determining fair and reasonable prices without
 adequate support for the determinations. To minimize the number of contract
 awards without adequate support for cost reasonableness determinations,
 contracting officers should be reminded of the need to comply with FAR and
 DFARS guidance concerning cost or pricing data. The final report for Audit
 Project No. D2000CF-0059, "Audit of Adequacy of Contracting Officer
 Determination of Price Reasonableness When Cost or Pricing Data Are Not
 Required," will contain a DoD-wide recommendation on compliance with cost or
 pricing data requirements. Therefore, this report only contains a recommendation
 specific to the five contracting organizations identified during the audit that did not
 properly obtain or waive required cost or pricing data.




                                         15
Recommendation and Management Comments
  C. We recommend that the Director, Defense Threat Reduction Agency; the
  National Guard Bureau, United States Property and Fiscal Officer, Oregon;
  and the Commanders, Kirtland, Schriever, and Warner Robins Air Force
  Bases issue guidance requiring their contracting officers to comply with the
  FAR and DFARS requirements for obtaining cost or pricing data and the
  circumstances for waiving the requirement.

  Management Comments. The Director, Defense Threat Reduction Agency; the
  Air Force; and the United States Property and Fiscal Officer, Oregon, concurred.
  The Defense Threat Reduction Agency and the United States Property and Fiscal
  Officer issued guidance requiring their contracting personnel to comply with FAR
  and DFARS requirements pertaining to cost or pricing data. The Air Force
  instituted training to increase contracting personnel awareness of the requirements
  pertaining to cost or pricing data at the Air Force Research Laboratory, Kirtland
  Air Force Base, and at Schriever and Warner Robins Air Force Bases. For the full
  text of the management comments, see the Management Comments section of the
  report.




                                        16
Appendix A. Audit Process

Scope
  Work Performed. We visited 49 contracting organizations and reviewed
  documentation on 294 FYs 1997 and 1998 contract actions coded cost or pricing
  data waived in DCADS. Additionally, we reviewed documentation on 91 contract
  actions obtained by mail from 55 other contracting organizations. The 385 actions
  were valued at about $1.5 billion. The documentation included contracts, price
  negotiation memorandums, prenegotiation briefing memorandums, business
  clearance memorandums, signed waivers of the requirement to obtain cost or
  pricing data, the justification for the waivers, documentation of assistance obtained
  from DCAA and DCMA, and the DD Forms 350 for the basic contract, agreement,
  or order. In addition, we reviewed documents relevant to management control
  programs.

  DoD-Wide Corporate Level Government Performance and Results Act (GPRA)
  Goals. In response to the GPRA, the Secretary of Defense annually established
  DoD-wide corporate level goals, subordinate performance goals, and performance
  measures. Although the Secretary of Defense has not established any goals for
  Contract Management and Information Management, the General Accounting Office
  lists them as high-risk areas. This report pertains to Contract Management and
  Information Management.

Methodology
  We evaluated DD Forms 350 block C11 entries and contract file documents to
  determine whether the entries accurately reported waivers of the TINA requirement
  for contractors to provide cost or pricing data. We evaluated the contracting
  officers' justifications for cost or pricing data waivers to determine whether the
  waivers were adequately supported and used in appropriate circumstances. We also
  evaluated the procedures used to process requests for waivers to determine whether
  the procedures were efficient. Additionally, we evaluated the actions taken by
  contracting officers to obtain fair and reasonable prices for procurements with cost
  or pricing data waived to determine whether the actions were sufficient to ensure
  fair and reasonable prices.

  Use of Computer-Processed Data. We relied on computer-processed data from
  the DCADS database to select an audit sample and determine which contracting
  organizations to visit. Although we did not perform a formal reliability assessment
  of the computer-processed data, we determined that the contract numbers, award
  dates, contractors, and cost or pricing data codes generally agreed with the
  information in the computer-processed data. We did not find errors that would
  preclude use of the computer-processed data to meet the audit objectives or that
  would change the conclusions in the report.

  Statistical Sampling Methodology. The universe population comprised the
  22,115 FYs 1997 and 1998 contract actions valued at $6.3 billion coded "W"

                                         17
(indicating cost or pricing data was waived) in DCADS. We tested 129 contract
actions during the survey phase, 24 of which were included in the audit phase. The
audit work during the survey phase revealed that a high proportion of the 22,115
actions did not involve a new agreement or new work and therefore, did not require
submission of cost or pricing data or a waiver in FYs 1997 and 1998.
Consequently, we requested a second data call from the Washington Headquarters
Service against the same FYs 1997 and 1998 DCADS records. The resulting
subpopulation of 4,590 contract actions were, based on DCADS codes, all actions
that involved new work added to a basic contract or agreement, or were themselves
basic contracts or agreements. As such, the contract actions would require cost or
pricing data or a waiver during FYs 1997 and 1998. Table A-1 shows the
breakdown of the 22,115 contract actions in the original universe.

            Table A-1. Breakdown of 22,115 Contract Actions in
                            Original Universe

                                             Actions      Contracts   Value ($B)

    Original universe – all coded ‘W’           22,115      4,138       $6.338

    Actions adding new work or a new            4,590       2,780       $2.069
    agreement
    Actions not adding new work or              17,525      1,358       $4.269
    a new agreement

Subpopulation. After removing actions that did not require cost or pricing data or
a waiver in FYs 1997 and 1998, we obtained a subpopulation of 4,590 contract
actions that, according to DCADS coding, would require cost or pricing data or a
waiver. Table A-2 shows the subpopulation by DoD Component.

                 Table A-2. Subpopulation by DoD Component

                           $500K and Over                     Under $500K
     Component         Actions          Value ($M)       Actions      Value ($M)
     Army                 95             $199.0           1,135        $102.7
     Navy/USMC           178         $1,191.4              830           $79.6
     Air Force            65             $315.7            656           $63.6
     DLA                  17              $38.3           1,535          $57.8
     ODA                  7               $13.2              72          $7.4
                      ________          ________         ________     ________
       Total            362             $1,757.7          4,228        $311.1
     DLA Defense Logistics Agency
     ODA Other Defense Agencies



                                           18
Statistical/Quantitative Approach. We analyzed the 22,115 contract actions in
two portions. The 17,525 contact actions that did not involve new work or new
agreements were analyzed during the audit survey phase based on the DD Form 350
data reported to DCADS. The remaining 4,590 contract actions were analyzed
using a stratified random sample. We tested 279 contract actions statistically
selected from the 4,590 actions in the subpopulation. Table A-3 shows the sample
selected from the subpopulation.

             Table A-3. Sample Selected From 4,590 Subpopulation

                        $500K and Over                Under $500K                    Total
Component             Universe      Sample      Universe       Sample      Universe       Sample

Army                       95           50         1,135           20        1,230           70

Navy/USMC1                178           65            830          20        1,008           85

Air Force                  65           40            656          20          721           60

DLA                        17           17         1,535           20        1,552           37

ODA                        7           7             72           20           79           27
                      _______      ______        _______       ______      _______       _______
    Total                362         179          4,228          100        4,590          279

Measurement Issues. Among the 22,115 contract actions in the universe, there
were 17,525 actions, valued at $4.3 billion, that did not require new work or a new
agreement and, therefore, did not require submission of cost or pricing data or a
waiver in FYs 1997 and 1998. Among the remaining 4,590 actions, a substantial
number were miscoded for a variety of reasons. The reasons for the miscoding are
discussed in finding B. The small number of contract actions that were coded
correctly are discussed in finding A.

Statistical Results. We computed statistical projections for the percentages and the
number of actions in four categories: properly granted waivers, improperly granted
waivers, known miscodes, and no determination because contract information was
missing or incomplete. We calculated the confidence intervals using a 95 percent
confidence level. The projections include point estimates, which are essentially the
midpoints between the lower and upper bounds for the respective categories. The
dollar value point estimate does not sum to the approximately $2.0 billion value of
the 4,590 contract actions. Not summing to the total is the most common result of a

1
  In analyzing the data, we created an eleventh, "census" stratum and put two Navy actions into it.
The two actions, valued at $251 million and $159 million, were so atypical of the value of Navy
actions over $500,000 that they skewed the action value projections, so we post stratified them out
into a self-representing (census) stratum. Putting the two actions in the separate stratum maintains
their part of the population’s value while removing their influence on the statistical projection, in a
statistically appropriate way.


                                                 19
statistical sample. Given the sample size and characteristics, projecting dollar value
from the sample to the population value, the confidence interval should include the
book value within its range in 95 out of 100 samples. This audit sample
accomplishes that purpose. The 95 percent confidence interval is $1.5 billion to
$2.4 billion with its midpoint being $1.9 billion. Table A-4 shows the statistical
projections.

                        Table A-4. Statistical Projections

                                                 Point     Lower    Upper
       Category                                 Estimate   Bound    Bound
       Waivers:        Number of actions           189       56      322
                       Percentages                 4.1       1.2      7.0
                       Value (millions)         $1,042     $621    $1,463


       Not Obtained:   Number of actions           11         6       16
                       Percentages                 0.2       0.1      0.3
                       Value (millions)          $15.3      $9.0    $21.6


       Miscodes:       Number of actions         4,264     4,090    4,437
                       Percentages                92.9      89.1     96.7
                       Value (millions)          $789      $594     $983
       No Data         Number of Actions          126        14      238
                       Percentages                 2.8       0.3      5.2
                       Value (millions)           $66       $40      $91

The projections can be interpreted in statistical terms. To illustrate the projections
for “waivers,” we are 95 percent confident that between 56 and 322 of the
4,590 DoD-wide actions sampled had appropriately justified cost or pricing
waivers. The unbiased point estimate of 189 actions is the midpoint of the
statistically estimated range of values. In terms of percentages, between 1.2 and
7.0 of the 4,590 DoD-wide actions had the waivers, and the unbiased point estimate
of 4.1 percent is the midpoint of the statistically estimated range of values for the
percentages of waivers in the population.

Summary. We concluded the following information, based on our two-part analysis
of the 22,115 "W" coded actions.

   •    There were from 56 to 322 actions that were properly executed waivers.
        They were valued between $621 million and $1.463 billion.


                                           20
      •    There were from 6 to 16 actions2 coded cost or pricing data waived where
           neither a waiver nor the required data was obtained. They were valued
           between $9 million to $22 million.

      •    There were from 21,615 to 21,962 actions3 valued between $4.861 billion
           and $5.250 billion that did not represent actions that required cost or pricing
           data or a waiver in FYs 1997 and 1998.

  Use of Technical Assistance. The Technical Director and Research Analysts from
  the Quantitative Methods Division, Office of the Assistant Inspector General for
  Auditing, DoD, developed the statistical sampling plan for the audit. Their work
  included statistically selecting the audit locations and the number of contracts to be
  examined at each location, as well as the statistical projections of audit results used
  in the report.

  Audit Type, Dates, and Standards. We performed this program audit from
  February through November 2000 in accordance with auditing standards issued by
  the Comptroller General of the United States, as implemented by the Inspector
  General, DoD. Accordingly, we included tests of management controls considered
  necessary.

  Contacts During the Audit. We visited or contacted individuals and organizations
  within DoD. Further details are available upon request.

Management Control Program Review
  DoD Directive 5010.38, "Management Control Program," August 26, 1996, and
  DoD Instruction 5010.40, "Management Control (MC) Program Procedures,"
  August 28, 1996, require DoD organizations to implement a comprehensive system
  of management controls that provide reasonable assurance that programs are
  operating as intended and to evaluate the adequacy of the controls.

  Scope of Review of the Management Control Program. We reviewed the
  adequacy of management controls over contract award and reporting processes.
  Specifically, we reviewed management controls over the preparation of applicable
  contract award documents such as price negotiation memorandums; prenegotiation
  briefing memorandums; business clearance memorandums; signed waivers of the
  requirement to obtain cost or pricing data, including the justifications for the
  waivers; and DD Form 350 block C11 reporting entries. We also reviewed the
  adequacy of management's self-evaluation of management controls at each
  organization we visited.

  2
   Note that while the statistical interval is 6 to 16, our sample included 7 actions that were coded cost
  and pricing data waived, when they should not have been, consequently the 7 audited errors are the
  known lower limit.
  3
   This range comprises the confidence intervals from the sample of the 4,590 (4,090 to 4,437) plus
  the 17,525 actions that involved no new agreement or additional work. The dollar value range was
  calculated the same way.


                                                  21
  Adequacy of Management Controls. Management controls over the contract
  award process were adequate in that we identified no material management control
  weaknesses. However, we identified a material management control weakness as
  defined by DoD Instruction 5010.40 in the contract reporting process. Management
  controls at DoD contracting organizations over contract reporting were not adequate
  to ensure that contract specialists correctly coded block C11 of the DD Form 350
  concerning cost or pricing data and that the contracting officers that signed the DD
  Forms 350 corrected the errors. Significant errors resulted in misleading reports
  that grossly inflated the number of contract actions where the heads of the
  contracting activities waived the requirement for contractors to provide cost or
  pricing data. During the audit, the contracting organizations we visited issued
  internal guidance to contracting personnel advising them of the miscoding problem
  and the need to correctly code block C11 of the DD Form 350. In addition, the
  Director, Defense Procurement, issued guidance to correct the control weakness.
  Recommendations B.1. and B.2., if implemented, will further improve management
  controls over the accuracy of block C11 coding. A copy of the report will be
  provided to the official responsible for management controls for DoD contracting
  organizations.

  Adequacy of Management's Self-Evaluation. DoD contracting organizations did
  not identify the DD Form 350 reporting as an assessable unit and, therefore, did not
  identify the material management control weakness identified by this audit.

Management Comments on Management Controls and
Audit Response
  Management Comments. The Director, Defense Procurement, stated that the
  mistakes in DCADS coding did not fall within the definition of a material
  management control weakness as defined in DoD Instruction 5010.40. The
  Director stated that while coding errors affect the accuracy of DCADS data, they
  have not threatened DoD’s ability to complete its contracting mission, nor have they
  led to fraud, waste, or mismanagement of funds.

  Audit Response. We continue to believe that inadequate controls to ensure correct
  coding of DCADS entries is a material management control weakness in the
  contract reporting function. Subparagraph E.4.1.3, enclosure 4, DoD
  Instruction 5010.40, identifies contract reporting as an assessable unit. Assessable
  units usually have specific management controls that are applicable to that unit's
  responsibilities. The inadequate controls met the two conditions for a material
  weakness described in subparagraphs E3.1.1. and E3.1.2., enclosure 3, in that there
  was no reasonable assurance that the objectives of the contract reporting units were
  being met, and involvement of higher level management was required to correct the
  problem. Further, the mistakes in DCADS coding impaired fulfillment of the
  mission of the contract reporting function, diminished the credibility of
  management, resulted in unreliable information that could cause unsound
  management decisions, and in adverse congressional interest. Because management
  makes the final determination on whether to categorize a management control
  weakness as material based on its judgement about the impact of the weakness,
  additional comments from management are not required.


                                         22
Prior Coverage
  No prior audits of waivers of the TINA requirement for contractors to provide cost
  or pricing data have been conducted during the past 5 years. The Inspector
  General, DoD, Audit Project No. D2000CF-0059, "Audit of Adequacy of
  Contracting Officer Determination of Price Reasonableness When Cost or Pricing
  Data Are Not Required," provides related coverage and is referred to in this report.
  It is anticipated that the final report for Project No. D2000CF-0059 will be issued in
  March 2001.




                                         23
Appendix B. Price Determinations and
            DoD Waivers for Cost or
            Pricing Data
   The DoD waived the requirement that contracting officers obtain cost or pricing
   data from the Canadian Commercial Corporation and its subcontractors and from
   nonprofit organizations (including educational institutions) on
   cost-reimbursement-no-fee contracts (DFARS subpart 215.403-1[c]). The
   contracting officers authorized blanket waivers of 17 of 44 contract actions and
   ensured fair and reasonable prices. The 17 waivers and price reasonableness
   determinations are summarized in the following paragraphs.

Canadian Commercial Corporation (1 waiver)

   Contract N000383-97-D-006J/7001. The Naval Inventory Control Point,
   Philadelphia, Pennsylvania, competitively awarded a $665,600 contract to the
   Canadian Commercial Corporation for overhauling P-3C aircraft alternating
   generators. SPAR Aerospace was the subcontractor for 100 percent of the work in
   accordance with an agreement between the United States and Canada. The
   Canadian Commercial Corporation was responsible for monitoring and guaranteeing
   contract performance, confirming subcontractor responsibility, and confirming price
   fairness and reasonableness. The contracting officer determined that the contract
   price was fair and reasonable based on the Canadian Commercial Corporation's
   endorsement.

Nonprofit Organizations, Research and Development Work (5 waivers)

   Contract DABT63-93-C-0062/P00011. The Army Intelligence Center, Fort
   Huachuca, Arizona, issued a $941,176 contract modification P00011 to the
   University of Southern California. The DFARS requires that modifications
   providing incremental funding be coded the same as the basic contract for cost and
   pricing information (block C11 of the DD Form 350). The basic contract had cost
   or pricing data waived in block C11 because DoD granted blanket waivers to
   nonprofit organizations. The $3,736,062 basic contract was competitively awarded
   to the University of Southern California for research and development. Proposals
   for this cost-reimbursement-no-fee contract were solicited using two broad agency
   announcements and 213 proposals were received. The contracting officer
   determined the contract price was fair and reasonable by comparing the proposed
   cost elements including salaries, fringe benefits, and indirect costs to the cost
   elements of previous contracts with the University, and rate agreements negotiated
   by the Department of Health and Human Services. The contracting officer
   determined that the cost elements were comparable to, or less than, the costs of
   previous contracts. The contracting officer also obtained assistance from Army
   Intelligence Center technical personnel, who approved the proposed labor
   categories, labor mix, labor hours, and skill levels.

   Contract DABT63-96-C-0037/P00001. The Army Intelligence Center, Fort
   Huachuca, Arizona, issued a $771,862 contract modification P00001 to the
   Massachusetts Institute of Technology. The basic contract had coded cost or
   pricing data waived in block C11 because the DoD granted blanket waivers to
                                         24
nonprofit organizations. The $3,459,816 basic contract was competitively awarded
to the Massachusetts Institute of Technology for research and development work.
Proposals for this cost-reimbursement-no-fee contract were solicited using a broad
agency announcement and 159 proposals were received. The contracting officer
relied on a cost analysis to determine a fair and reasonable price because the
research effort precluded price analysis. The contractor's labor, material, services,
and employee benefits costs were based on contractor experience/historical costs for
these elements, and the indirect rate agreement between the Office of Naval
Research and the Massachusetts Institute of Technology. The contracting officer
also obtained assistance from Army Intelligence Center technical personnel, who
approved the proposed labor categories, labor mix, skill levels, and costs.

Contract DABT63-96-C-0041/P00001. The Army Intelligence Center, Fort
Huachuca, Arizona, issued a $563,200 contract modification P00001 to the
University of North Carolina. The basic contract had cost or pricing data waived in
block C11 because the DoD granted blanket waivers to nonprofit organizations.
The $4,227,240 basic contract was competitively awarded to the University of
North Carolina for research and development. Proposals for this
cost-reimbursement-no-fee contract were solicited using a broad agency
announcement and 159 proposals were received. The contracting officer used cost
analysis to determine a fair and reasonable price because the research effort
precluded price analysis. The contractor's proposed costs were based on contractor
experience/historical costs and the indirect rate agreement between the Department
of Health and Human Services and the University of North Carolina. The Office of
Naval Research Atlanta Office verified that the indirect cost rates were in
accordance with the rate agreement between the Department of Health and Human
Services and the University. The contracting officer also obtained assistance from
Army Intelligence Center technical personnel, who approved the proposed labor
categories, labor mix, skill levels, and costs.

Contract DABT63-96-C-0044/P00003. The Army Intelligence Center, Fort
Huachuca, Arizona, issued a $579,846 contract modification P00003 to the
University of Pittsburgh. The basic contract had cost or pricing data waived in
block C11 because the DoD granted blanket waivers to nonprofit organizations.
The contracting officer obtained cost or pricing data from the University of
Pittsburgh's subcontractor, Allied Signal Aerospace. The subcontract work was
valued at $608,712, about 37 percent of the $1,637,092 basic contract value.
Proposals for this cost-reimbursement-no-fee contract were solicited using a broad
agency announcement and 159 proposals were received. The contracting officer
relied on a cost analysis to determine a fair and reasonable price because the
research effort precluded price analysis. The contract prices for labor, material,
supplies, publication, and minor equipment were based on historical costs for these
cost elements. The contractor's cost proposal and the subcontractor's cost or
pricing data, together with the predetermined rate agreement between the
Department of Health and Human Services, the University of Pittsburgh, and the
DCAA verification of the subcontractor's labor and materiel overhead rates, were
all used to determine that the contract price was fair and reasonable. The




                                       25
   contracting officer also obtained assistance from Army Intelligence Center technical
   personnel, who approved the proposed labor categories, labor mix, skill levels, and
   costs.

   Contract F08635-98-C-0004. Eglin Air Force Base, Florida, awarded a $1,699,354
   contract to the Georgia Tech Research Corporation (GTRC) for research and
   development efforts on the bistatic coherent measurement system. The sole-source
   contract was awarded because the system design is proprietary to the GTRC. The
   coherent bistatic radar methodology was originally conceived, developed, and tested
   by GTRC at its own expense before the Air Force became involved in the program.
   The contracting officer used cost analysis with support from Eglin Air Force Base
   technical personnel and DCAA to determine that the contract price was fair and
   reasonable. The technical evaluation took no exception to the labor hours, labor
   mix, labor categories, and material costs proposed by GTRC. DCAA took no
   exception to the labor rates established by the Georgia State Legislature for GTRC,
   the fringe benefit and program management, project level support, technical
   support, and indirect cost rates.

Nonprofit Organizations, Reserve Officers Training Corps Tuition (11 waivers)

   The following 11 contract actions were orders against Army and Navy Educational
   Services Agreements. These agreements affected students participating in Army and
   Navy Reserve Officer Training Corps scholarship programs. The DoD waived cost
   or pricing data requirements for nonprofit organizations including educational
   institutions on cost-reimbursement-no-fee contracts (DFARS 215.403-1[c][4][B]).
   The contracting officers determined that the contract prices were fair and reasonable
   based on standard tuition rates and fees charged by the universities.

   (1) Contract No.: DABT23-97-H-0078/1
       Contract Value: $661,272
       Awarded by: Fort Knox, Kentucky
       Awarded to: Illinois Institute of Technology

   (2) Contract No.: DABT23-97-H-0258/1
       Contract Value: $667,310
       Awarded by: Fort Knox, Kentucky
       Awarded to: Marion Military Institute

   (3) Contract No.: N00140-97-G-2952/RQTJ
       Contract Value: $842,010
       Awarded by: Fleet and Industrial Supply Center, Philadelphia, Pennsylvania
       Awarded to: George Washington University

   (4) Contract No.: N00140-97-G-2944/ROYJ
       Contract Value: $536,723
       Awarded by: Fleet and Industrial Supply Center, Philadelphia, Pennsylvania
       Awarded to: Carnegie Mellon University

   (5) Contract No.: N00140-97-G-2954/8AP0
       Contract Value: $164,288
       Awarded by: Fleet and Industrial Supply Center, Philadelphia, Pennsylvania
       Awarded to: Hampton University

                                          26
 (6) Contract No.: N00140-97-G-2961/L9B6
     Contract Value: $161,352
     Awarded by: Fleet and Industrial Supply Center, Philadelphia, Pennsylvania
     Awarded to: Iowa State University

 (7) Contract No.: N00140-97-G-2947/L9MQ
     Contract Value: $648,000
     Awarded by: Fleet and Industrial Supply Center, Philadelphia, Pennsylvania
     Awarded to: University of Colorado at Boulder

 (8) Contract No.: N00612-93-G-0021/RH09
     Contract Value: $105,711
     Awarded by: Naval Supply Center, Charleston, South Carolina
     Awarded to: University of Kansas

 (9) Contract No.: N00612-93-G-0039/L921
     Contract Value: $181,233
     Awarded by: Naval Supply Center, Charleston, South Carolina
     Awarded to: Oregon State University

(10) Contract No.: N00612-93-G-0046/8AVH
     Contract Value: $620,385
     Awarded by: Naval Supply Center, Charleston, South Carolina
     Awarded to: University of Rochester

(11) Contract No.: N00612-93-G-0050/8AB1
     Contract Value: $803,279
     Awarded by: Naval Supply Center, Charleston, South Carolina
     Awarded to: University of Southern California




                                      27
Appendix C. Waivers Granted by HCAs
   Contracting officers properly justified, and used in appropriate circumstances,
   waivers granted by HCAs of the TINA requirement for cost or pricing data for
   certain negotiated contract actions valued at $500,000 and over. The contracting
   officers also ensured fair and reasonable prices for the contract actions. The
   27 waivers are summarized in the following paragraphs.

Army Organizations
Army Aviation and Missile Command (AMCOM), Huntsville, Alabama (3 actions)

   Contract No. DAAH09-94-G-0005/P00097, valued at $8.6 million, awarded to
   McDonnell Douglas/Boeing for 100 AH-64 Apache rotary wing blades. The
   contracting officer requested a waiver of cost or pricing data because the data from
   a previous procurement and the supplemental cost information provided by the
   contractor was sufficient to negotiate a fair and reasonable price. Additionally, no
   other factors, such as configuration changes, were identified that would impact the
   contracting officer's ability to perform price analysis. The contracting officer
   performed a price analysis using the contractor's proposal and previously negotiated
   prices. The Commander, AMCOM, approved the waiver request.

   Contract No. DAAH09-94-G-0009, valued at $11.2 million, awarded to McDonnell
   Douglas Helicopter Systems to acquire the Apache post-production systems support
   (PPSS) for FY 1997. The FY 1997 procurement, identified as Apache PPSS 16,
   was the 16th consecutive procurement of Apache PPSS from McDonnell Douglas
   Helicopter Systems. The contracting officer requested that a waiver of cost or
   pricing data because the effort from Apache PPSS 15 to Apache PPSS 16 had not
   changed significantly. The price settlement for the PPSS 15 award was based on
   cost or pricing data and the information could be used to determine a fair and
   reasonable price. Additionally, DCAA reviewed the McDonnell Douglas
   Helicopter Systems actual costs for the PPSS 15 effort and used it as the baseline
   for PPSS 16. DCAA found no questioned, unsupported, or unresolved costs. The
   contracting officer concluded that the cost or pricing data submitted for the PPSS 15
   procurement, combined with the additional data provided for PPSS 16, and several
   years of past history was sufficient to determine that a fair and reasonable price
   could be negotiated for the PPSS 16 effort. The contracting officer used extensive
   price history that was supported by cost or pricing data, the current forward pricing
   rate agreement, and updated cost data to determine a fair and reasonable price for
   the PPSS 16 award. The contracting officer also used integrated product team
   results to streamline the PPSS 16 procurement. In addition, technical evaluator
   recommendations were used to determine a fair and reasonable price for the
   PPSS 16 award. The Commander, AMCOM, approved the waiver request.

   Contract No. F09603-95-G-0002/BS06, valued at $2.37 million, awarded to Smith
   Industries and Aerospace Defense Systems, Incorporated, for production of 95 data
   receptacle units and 190 data transfer modules in support of the control display
   system for the OH-58D Kiowa Warrior Aircraft. The contracting officer requested
   a waiver of cost or pricing data because extensive historical cost or pricing data
   (production lots 1 through 12) coupled with current cost data was sufficient to
   determine a fair and reasonable contract price. The contracting officer performed
                                          28
   price analysis using the contractor's proposal, previous production cost history, and
   DCAA's updated labor and overhead rates to determine a fair and reasonable price.
   The Commander, AMCOM, approved the waiver request.

Navy Organizations
NAVAIR, Patuxent River, Maryland (5 actions)

   Contract No. N00019-95-C-0004/P00026, valued at $4.2 million, awarded to
   Rockwell International Corporation for the purchase of 84 receiver/transmitters,
   radio system components, and reliability warranties. The contracting officer
   requested a waiver because of extensive cost history (5 years in production),
   combined with field pricing support provided by DCMA. The waiver concluded
   that detailed cost breakdown in a work category structure was sufficient to
   determine a fair and reasonable price. The contracting officer used cost data
   furnished from previous production purchases in conjunction with updated cost
   information, and the DCMA field pricing report, to determine a fair and reasonable
   price. The Commander, NAVAIR, approved the waiver.

   Contract No. N00019-97-C-0099, valued at $159.4 million, awarded to McDonnell
   Douglas Corporation for purchasing six F/A-18D aircraft and related ancillary
   equipment. The contracting officer requested a waiver of cost or pricing data
   because the aircraft was in mature production, extensive program cost history was
   available, and the tentative fixed-price agreement was better than could be achieved
   through traditional negotiations based on cost or pricing data. The contracting
   officer determined the contract price was fair and reasonable by comparing the
   proposed price to the NAVAIR estimated unit price, FYs 1995 and 1996 unit
   prices, and extensive price history. The contracting officer concluded that the
   proposed price was well supported by 18 previous production negotiations that
   included cost or pricing data. The contracting officer also obtained DCAA
   assistance to evaluate the contractor's proposal. The Commander, NAVAIR,
   approved the waiver.

   Contract No. N00019-95-C-0132/P00017, valued at $35.08 million, awarded to
   General Electric Aircraft Engines for 24 F404-GE-402 engines and modules. The
   contracting officer requested a waiver of cost or pricing data because NAVAIR
   knew the cost of engines and modules based on analysis of actual cost data and prior
   engine production prices from 1990 with 692 engine deliveries. The contracting
   officer performed price analysis using shop cost data from previous production
   procurements, acceptable escalation factors established by in-house analysts, and
   forward pricing rate agreements negotiated by DCAA to determine a fair and
   reasonable price. The contracting officer also obtained assistance from DCMA
   analysts to evaluate the contractor's proposal. The Commander, NAVAIR,
   approved the waiver.

   Contract No. N00019-97-C-0049, valued at $21.2 million, awarded to Allison
   Engine Company for eight T56-A-427 aircraft engines and related data. The
   contracting officer requested a waiver of cost or pricing data because the engine was
   in mature production, and cost or pricing data from previous procurements, and
   updated information would be sufficient to determine a fair and reasonable price.
   Allison Engine Company was the sole manufacturer of the T56-A-427 engine for
   over 30 years. The DCMA concurred with the request to waive cost or pricing

                                          29
   data. The contracting officer performed price analysis that projected FYs 1995 and
   1996 prices, adjusted for escalation, quantity, and learning, to determine a fair and
   reasonable price for the FY 1997 contract. The FYs 1995 and 1996 prices provided
   a valid base to project prices because negotiations were based on the FYs 1995 and
   1996 combined requirements and contractor certified cost or pricing data. The
   prices negotiated for the previous production procurements were tested for validity
   by comparing actual vendor costs with contract prices. The Commander,
   NAVAIR, approved the waiver.

   Contract N00019-97-C-0082/P00003, valued at $17,138,090, awarded to
   McDonnell Douglas Corporation to procure 20 additional all-up-round lightweight
   canister harpoon missiles. This additional acquisition procured under contract
   N00019-97-C-0082 brought the total to 135. The waiver was requested because
   sufficient cost and pricing data was available to determine a fair and reasonable
   price. Cost or pricing data were obtained for five previous production contracts.
   The contract prices were derived from extensive cost analysis and negotiations
   supported by DCAA and DCMA. Further, the contract was repriced for a total of
   135 missiles resulting in a downward price adjustment of over $2.6 million. The
   contracting officer determined that the price for the 20 additional missiles was fair
   and reasonable by comparing the unit price of the additional missiles to the unit
   prices on previous contracts. The Commander, NAVAIR, approved the waiver.

Naval Inventory Control Point (NAVICP) - Philadelphia, Pennsylvania (3 actions)

   Contract No. N00383-96-G-004D/P1112, a basic ordering agreement (BOA) order,
   valued at $1,945,205, awarded to McDonnell Douglas/Boeing for various airframe
   components needed to support the low-rate initial production of F/A-18E/F aircraft.
   The contracting officer requested a waiver because the cost or pricing data
   submitted for the same airframe components on a previous BOA order was
   sufficient to establish a fair and reasonable price. The contracting officer
   considered the prices supported by cost or pricing data on the previous order
   combined with updated cost information to determine a fair and reasonable price.
   The Commander, NAVICP Philadelphia, approved the waiver.

   Contract No. N00383-93-G-010V/P7006, a BOA order, valued at $731,486,
   awarded to Litton Systems Incorporated for repairing 26 components of the inertial
   measurement unit test set system. These components test electro-optics on various
   aircraft. The contracting officer requested a waiver because the data from two
   negotiated BOA orders for repair of the same test unit components was sufficient to
   determine a fair and reasonable price. The contracting officer used the prices from
   previous cost or pricing data to determine that prices for 25 of the 26 repair items
   included in the order were fair and reasonable. The negotiated prices for the
   25 items were identical to those negotiated for similar quantities on the previous
   orders. For the one item that was not included in the previous orders, the
   contracting officer used a pricing methodology that was based on the firm-fixed
   prices negotiated for the other 25 items to negotiate a price that was about
   17 percent less than the contractor's proposed price. The Commander, NAVICP
   Philadelphia, approved the waiver.




                                           30
   Contract No. N00383-96-G-025G/0007, a BOA order, valued at $4,953,690,
   awarded to General Dynamics Armament Systems (formerly Lockheed Martin) for
   21 gun turret and feeder assemblies for the AH-1W helicopter program. The
   contracting officer requested the waiver because the cost or pricing data and the
   DCAA and DCMA advisory reports for two previous orders coupled with DCAA
   and DCMA recommendations were sufficient to determine a fair and reasonable
   price. The contracting officer used the actual costs for the gun turrets from the
   contractor under the previous orders to determine a fair and reasonable price. For
   the feeders, the contracting officer used the negotiated prices on the previous order
   that were supported by cost or pricing to determine a fair and reasonable price. The
   Commander, NAVICP Philadelphia, approved the waiver.

NAVSEA, Arlington, Virginia (6 actions)

   Contract No. N00024-97-C-5184, valued at $251.4 million, awarded to Lockheed
   Martin, Government Electronics Systems for production, integration, and testing of
   four MK7 AEGIS Weapon Systems for the Spanish Navy. The contracting officer
   requested a waiver because the MK7 was in mature production (since 1978), and
   extensive historical cost and pricing data existed. Additionally, the contractor was
   required to submit adequate cost information for pricing the monitoring and
   managing Spanish subcontractors. Two Spanish subcontractors were specifically
   excluded from the waiver requirement to submit cost or pricing data. The
   contracting officer determined that the historical data combined with updated labor
   and overhead rates was sufficient to determine fair and reasonable prices for the
   procurement. The contracting officer comparatively analyzed the contractor's
   proposal with the actual costs on previous procurements to determine a fair and
   reasonable price for the procurement. The contracting officer also relied on DCAA
   and DCMA pricing and technical recommendations, the administrative contracting
   officer's rate recommendations, and the AEGIS Program Office technical
   recommendations to determine a fair and reasonable price. The Commander,
   NAVSEA, approved the waiver.

   Contract No. N00024-97-C-5193, valued at $85.6 million, awarded to Raytheon
   Electronic Systems for production of transmitters and radar for the AEGIS fire
   control system for the Spanish Navy. The contracting officer requested a waiver
   because NAVSEA had continuous contracts with Raytheon since 1984, and
   extensive historical cost and pricing data existed. Additionally, the contractor was
   required to submit adequate cost information for pricing the monitoring and
   managing of a Spanish subcontractor that traveled to and from Spain with no
   previous history. The Spanish subcontractor was specifically excluded from the
   waiver requirements to submit cost or pricing data. The contracting officer
   determined that the cost or pricing data submitted for previous procurements
   combined with updated information was sufficient to determine a fair and
   reasonable price. The contracting officer performed cost and price analyses of the
   contractor's proposal, using the recommendations of the DCMA field pricing
   report, updated DCAA labor and overhead rates, and FYs 94 through 96 AEGIS
   production cost histories to determine a fair and reasonable price. The
   Commander, NAVSEA, approved the waiver.

   Contract No. N00024-98-C-5197/P00003 and P00009, valued at $17.7 million,
   awarded to Lockheed Martin Government Electronic Systems (LM/GES) for
   research and development of AEGIS combat system baseline upgrades and critical
   experiments in support of the AEGIS development program. Modification P00003
                                          31
   provided incremental funding in the amount of $4,443,198 and modification P00009
   exercised an option and provided incremental funding valued at $13,235,060. The
   DFARS requires that cost or pricing information (block C11 of the DD Form 350)
   for modifications that provide incremental funding and modifications that exercise a
   priced option be coded the same as the basic contract. The basic contract was
   coded cost or pricing data waived. The contracting officer requested the waiver
   because LM/GES has been the prime contractor for AEGIS development since 1969
   and extensive historical cost or pricing data existed to determine a fair and
   reasonable price. Additionally, an integrated product team (IPT), comprised of
   NAVSEA, LM/GES, DCAA, and DCMA representatives assisted in developing the
   proposal and determining a fair and reasonable price. The IPT participants agreed
   that sufficient historical and other data were available to determine fair and
   reasonable prices. The contracting officer performed cost and price analyses of the
   contractor's proposal and obtained assistance from the IPT, DCAA, and DCMA in
   determining a fair and reasonable price. The Commander, NAVSEA, approved the
   waiver.

   Contract No. N00024-98-C-5416, valued at $37.4 million, awarded to Hughes
   Aircraft Company Naval and Maritime Systems for procurement of up to
   15 shipsets of AN/UYQ-21 unmanned equipment. The contract includes 2 separate
   actions, the procurement of up to 11 shipsets, valued at $28,155,190, for the U.S.
   Navy, and the procurement of 4 shipsets valued at $9,234,248 for the Spanish
   Navy. The contracting officer requested the waiver because the AN\UYQ-21
   equipment was in mature production, extensive historical cost and pricing data
   existed, and updated information combined with cost or pricing data submitted on
   previous production procurements was sufficient to determine a fair and reasonable
   price for the current procurements. Additionally, an Integrated Product Team
   comprised of representatives from NAVSEA, a Government support contractor,
   Hughes Aircraft Company, DCAA, and DCMA assisted in developing the proposal
   and determining a fair and reasonable price. The IPT participants agreed that
   sufficient historical and other data was available to determine a fair and reasonable
   price. The IPT used actual cost data from the FY 1993 through FY 1996
   production contracts to develop hours and dollars value for the proposed tasks. The
   contracting officer performed cost and price analyses of the contractor's proposal
   and obtained assistance from the IPT to determine a fair and reasonable price. The
   Commander, NAVSEA, approved the waiver.

Air Force Organizations
Sacramento Air Logistics Center (AFMC), California (1 action)

   Contract No. F04606-97-C-0118, valued at $1.5 million, awarded to Rockwell
   International Corporation for 21 AN/GRC-171D(V)4 radio sets for the Government
   of Thailand. The contracting officer requested a waiver because the price on the
   previous contract, awarded 8 months earlier, for 31 radio sets was based on cost or
   pricing data and additional cost or pricing data was not needed to determine a fair
   and reasonable price for the current contract. The contracting officer determined




                                          32
   the proposed contract price was fair and reasonable because it was the same as the
   price on the previous contract for 31 radio sets, which was based on cost or pricing
   data. The Commander, Air Force Materiel Command, approved the waiver.

Wright-Patterson Air Force Base, Dayton, Ohio (1 action)

   Contract No. F33657-97-C-0028, valued at $18.9 million, awarded to McDonnell
   Douglas Corporation for efforts in support of FY 1998 production of up to six
   F-15E attrition reserve fighter aircraft for the Air Force F-15E follow-on
   production program. The contracting officer requested a waiver because previously
   negotiated prices were based on cost or pricing data, combined with updated cost
   information. The current procurement is for follow-on production of a mature
   weapons system (annual production buys began in FY 1973) for which substantial
   reliable cost or pricing data exists. The contracting officer performed price analysis
   using updated cost information submitted with the contractor's proposal and
   previously submitted cost or pricing data. The Principal Deputy Assistant Secretary
   of the Air Force (Acquisition and Management) approved the waiver.

Defense Logistics Agency Organizations
Defense Energy Support Center, Fort. Belvoir, Virginia (4 actions)

   Contract No. DLA600-94-C-5433 with two actions (P00015 and P00018), valued at
   $711,000, awarded to Mobil Oil Corporation for fuel storage and throughput at
   contractor-owned, contractor-operated storage facilities at Djibouti, East Africa.
   Modification P00015 provided $177,750 incremental funding and modification
   P00018 provided $533,250 incremental funding. The DFARS requires that cost or
   pricing information (block C11 of the DD Form 350) for modifications that provide
   incremental funding be coded the same as the basic contract. The basic contract
   was coded cost or pricing data waived. The contracting officer requested the
   waiver because Mobil Oil Corporation refused to provide cost or pricing data,
   stating that the price was based on prevailing market conditions in the area, not on
   cost data. The contracting officer solicited 62 sources and Mobil Oil Corporation
   submitted the only offer. The contracting officer concluded that no determination
   could be made on the reasonableness of Mobil Oil Corporation's proposed prices
   because of the lack of price competition, and Mobil Oil Corporation's refusal to
   submit cost or pricing data. The services provided by Mobil Oil Corporation were
   mission essential and there was no alternative sources in the Djibouti area. The
   Commander, Defense Energy Support Center, approved the waiver request.

   Contract No. SP0600-96-C-5609 with two actions (P00003 and P00006), valued at
   $3,097,000, awarded to Delaware Storage and Pipe Line Company for maintaining,
   storing, and transferring war reserve materiel. Modification P00003 provided
   $1,548,500 second year funding and modification P00006 provided the $1,548,500
   third year funding. The DFARS requires that cost or pricing information (block
   C11 of the DD Form 350) for modifications that exercise a priced option be coded
   the same as the basic contract. The basic contract was coded cost or pricing data
   waived. The contractor refused to submit cost or pricing data, stating that the data
   was proprietary to Delaware Storage and Pipe Line Company. The contractor
   receives, stores, and pipes jet fuel to Dover Air Force Base and the Air National
   Guard at Dover. Delaware Storage and Pipe Line Company owns the pipeline and
   the Air Force has no other practical alternatives. The contracting officer

                                           33
   determined that additional requests to Delaware Storage for cost and pricing data
   would be fruitless. The Commander, Defense Energy Support Center, approved
   the waiver.

Defense Supply Center Richmond, Virginia (3 actions)

   Contract No. F34601-95-G-0012/TYK5, valued at $5,900,259, for 27,525 engine
   blades for the T56 turboprop engine under an Air Force BOA with Allison Engine
   Company. The contracting officer requested a waiver because the cost or pricing
   data from previous procurements, coupled with updated data were sufficient to
   determine price reasonableness. The contracting officer used cost and price
   analysis and price history to determine a fair and reasonable price. The
   Commander, Defense Supply Center Richmond, approved the waiver.

   Contract No. SP0430-97-C-5014, valued at $897,798, awarded to Concorde Battery
   Corporation for 2,200 lead acid storage batteries. The contracting officer requested
   a waiver because historical cost or pricing data, when combined with updated data,
   were sufficient to determine a fair and reasonable price. The contracting officer
   used the cost analysis performed under the previous contract, and the price of the
   previous contract adjusted for inflation and quantity differences, to determine a fair
   and reasonable price. The Commander, Defense Supply Center Richmond,
   approved the waiver.

   Contract No. N00383-95-G-M120/TYZH, valued at $628,575, for 493 vane shroud
   assemblies under a Navy BOA with Allied Signal Incorporated. The contracting
   officer requested a waiver because cost and pricing data submitted on previous
   production buys, when combined with updated information, were sufficient to
   determine price reasonableness. Additionally, Allied Signal claimed a commercial
   item exemption from the requirement to submit cost or pricing data, stating that the
   item was a component of an angle of attack transducer that was similar in design,
   form, and function to a system used on various commercial aircraft. The
   contracting officer could not verify that the item was commercial because Allied
   Signal did not furnish drawings of the items in response to requests by DCAA and
   DCMA. The contracting officer obtained the assistance of a cost analyst to evaluate
   the pricing and cost breakdown provided by Allied Signal and used the price of the
   previous procurement adjusted for inflation and quantity differences to determine a
   fair and reasonable price. The Commander, Defense Supply Center Richmond,
   approved the waiver.

Other Defense Agency
Defense Information Systems Agency, Defense Information Technology Contracting
Organization, National Capital Region, Arlington, Virginia (1 action)

   Contract No. DCA100-97-C-0034, valued at $1,199,365, awarded to Booz Allen &
   Hamilton Inc. for a mentor-protégé developmental assistance program. The
   contracting officer requested a waiver because of the unique nature of the
   mentor-protégé program and a DCAA audit that determined the proposed rates were
   fair and reasonable. The contracting officer compared the contractor's proposed
   costs to the Government objective, evaluated the proposed labor categories and skill
   mix, and compared the labor rates to previous contracts to determine a fair and
   reasonable price. The Commander, Defense Information Technology Contracting
   Organization, approved the waiver.
                                           34
Appendix D. Director, Defense Procurement
            Memorandum of August 7, 2000




                     35
36
37
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Acquisition Reform)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Defense Threat Reduction Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          38
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
   Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
   Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
   Government Reform




                                         39
Director, Defense Procurement Comments




                  41
42
Department of the Air Force Comments




                     43
44
45
46
47
Defense Threat Reduction Agency Comments




                    48
United States Property and Fiscal Officer,
Oregon Comments




                        49
Audit Team Members

The Contract Management Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Paul J. Granetto
Garold E. Stephenson
Eugene E. Kissner
Lt Col Samuel R. Griffin, USAF
Peter I. Lee
Bucceroni Mason
Arsenio M. Sebastian
Catherine A. Annulis
George B. West
Melanie J. Paz
Randall M. Critchlow
Shaneen J. Beamish
Nicholas K. Bretz

Quantitative Methods Division Team Members

Frank C. Sonsini
Henry D. Barton
Dharam V. Jain
